Office of Audits
Report No. AUD-11-014


The FDIC’s Privacy Program—2011




                           September 2011
                                    Executive Summary


                                    The FDIC’s Privacy Program—2011

                                                                                     Report No. AUD-11-014
                                                                                            September 2011

Why We Did The Audit

The FDIC Office of Inspector General (OIG) engaged the independent professional services firm of
KPMG LLP (KPMG) to conduct an audit of the FDIC’s privacy program. The objective of the audit was
to assess the FDIC’s privacy program and practices. The scope of the audit focused on the FDIC’s
processes for conducting and publicly posting Privacy Impact Assessments (PIA) and System of Records
Notices (SORN) for information systems and collections of records that contain Personally Identifiable
Information (PII). Specifically, KPMG’s work focused on assessing the FDIC’s compliance with the
following:

       Section 208 of the E-Government Act of 2002 (Section 208) as it relates to performing PIAs;
       Provisions of the Privacy Act of 1974 (Privacy Act) related to SORNs and privacy policy
        disclosures;
       Requirements of Section 522 of Division H of the Consolidated Appropriations Act, 2005, as
        amended, for establishing a privacy program and supporting privacy policies; and
       Related privacy guidance established by the Office of Management and Budget (OMB) for
        SORNs and PIAs.

As part of the audit, KPMG selected a non-statistical sample of six collections of PII to assess whether the
FDIC had conducted and publically posted the associated PIAs and SORNs consistent with relevant
Federal privacy-related provisions in Section 208, the Privacy Act, and OMB guidance. In addition,
KPMG selected two SORNs published by the FDIC in the Federal Register to determine whether the
SORNs (a) had been approved by the FDIC’s Board of Directors, (b) were published in the Federal
Register at least 30 days prior to the collection and use of PII, and (c) satisfied the content requirements
defined in the Privacy Act.

Background

In fulfilling its legislative mandate of insuring deposits, supervising financial institutions, and managing
receiverships, and in its role as a Federal employer and acquirer of services, the FDIC creates and
acquires a significant amount of PII (e.g., names, Social Security numbers, or biometric records) related
to depositors and borrowers at FDIC-insured financial institutions and FDIC employees and contractors.
Implementing proper security controls over this PII is critical to mitigating the risk of an unauthorized
disclosure that could lead to identity theft, consumer fraud, and potential legal liability or public
embarrassment for the Corporation.

A number of Federal statutes establish requirements associated with analyzing how PII is handled, such as
performing PIAs and making public notifications regarding completed PIAs and the categories of PII
collected, maintained, retrieved, and used. A PIA is a process for (1) examining the risks and
ramifications of using information technology to collect, maintain, and disseminate PII from or about
members of the public and (2) identifying and evaluating protections and alternative processes to mitigate
the impact to privacy of collecting such information. The public notification regarding completed PIAs
and the categories of PII collected, maintained, retrieved, and used by the agency is referred to as a
SORN.
                                     The FDIC’s Privacy Program—2011
   Executive Summary

                                                                                     Report No. AUD-11-014
                                                                                            September 2011

Section 522 established the requirement that Federal agencies implement formal privacy programs. The
statute requires agency Chief Privacy Officers (CPO) to have primary responsibility for the agency’s
privacy and data protection policy. As part of that responsibility, the CPO must assure the agency’s use
of technology sustains privacy protections. The CPO must also prepare an annual report to the Congress
on the activities that affect privacy, including complaints of privacy violations, and implementation of
related internal controls.

Audit Results

KPMG concluded that, except as noted below, the FDIC’s privacy program and practices for processing
PIAs and SORNs were compliant with selected provisions of Section 522, Section 208, the Privacy Act,
and OMB guidance. Among other things, the FDIC had appointed a CPO with overall responsibility for
the FDIC’s privacy program and submitted annual privacy reports to OMB and the Congress as required
by Section 522. Consistent with Section 208 and Privacy Act requirements, the FDIC had established
processes for preparing PIAs and SORNs and making them publicly available and posted its privacy
policies on the FDIC’s public Web site. In addition, PIAs for five of the six PII collections sampled
contained the required information regarding the FDIC’s collection and use of PII. The one exception is
described below. Moreover, the two SORNs that KPMG sampled had been properly approved by FDIC
management, published in the Federal Register, and addressed the content requirements of the Privacy
Act. Further, the FDIC included the required legal disclosures, referred to as a Privacy Act Statement, on
all sampled forms that collect PII from the public in accordance with the Privacy Act.

While the above results are positive, KPMG also found that for three of the six PII collections sampled,
the PIAs were not made available to the public until after the FDIC began collecting the PII.
Additionally, the PIA covering one of the six sampled PII collections did not fully describe (a) what
information was being collected, (b) the purpose of the collection, or (c) how the information was
secured.

Recommendations and Management Comments

The report includes three recommendations intended to strengthen the Corporation’s privacy program
practices pertaining to PIAs and SORNs. Specifically, the report recommends that the CPO issue a
corporate-wide policy requiring PIAs to be completed before collecting, maintaining, or disseminating
PII. The report also recommends that the FDIC develop strategies for (1) elevating and reporting
instances of non-compliance with privacy-related requirements to appropriate senior management
officials who are in a position to ensure they are promptly and effectively resolved and (2) identifying and
addressing instances of new PII collections that occur outside of the traditional systems development
lifecycle that might require a PIA.

On September 12, 2011, the FDIC’s Chief Information Officer (CIO), who also serves as the Director,
Division of Information Technology, and CPO, provided a written response to a draft of this report. In
the response, the CIO concurred with all three recommendations and described planned corrective actions
that are responsive to the recommendations.
Federal Deposit Insurance Corporation                                                                Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                 Office of Inspector General


DATE:                                     September 23, 2011

MEMORANDUM TO:                            Russell G. Pittman, Chief Information Officer,
                                          Director, Division of Information Technology, and
                                          Chief Privacy Officer


                                          /Signed/
FROM:                                     Mark F. Mulholland
                                          Assistant Inspector General for Audits

SUBJECT:                                  The FDIC’s Privacy Program—2011
                                          (Report No. AUD-11-014)


The subject final report is provided for your information and use. The FDIC Office of
Inspector General (OIG) contracted with the independent professional services firm of KPMG
LLP (KPMG) to perform the work. Please refer to the Executive Summary, included in the
report, for the overall audit results. Our evaluation of your response is incorporated into the
body of the report. Your comments on a draft of this report were sufficient to resolve the
recommendations.

Consistent with the OIG’s new approach to the Corrective Action Closure (CAC) process, the
OIG plans to limit its review of CAC documentation to those recommendations that we
determine to be particularly significant. Such determinations will be made when the Office of
Enterprise Risk Management (OERM) advises us that corrective action for a recommendation
has been completed. Recommendations deemed to be significant will remain open in the
OIG’s System for Tracking and Reporting (STAR) until we determine that corrective actions
are responsive. All other recommendations will be closed in STAR upon notification by
OERM that corrective action is complete, but remain subject to follow-up at a later date.

If you have questions concerning the report, please contact me at (703) 562-6316 or Daniel
Craven at (703) 562-6317. We appreciate the courtesies extended to the KPMG staff and OIG
audit staff.

Attachment

cc:        James H. Angel, Jr., Director, OERM
           Bret D. Edwards, Director, DRR
           Gary Jackson, Legal Division
           Ned Goldberg, DIT
           Rack Campbell, DIT
           Steven B. Lott, DIT
                                Contents




Part I

   Report by KPMG LLP                                        I-1
   The FDIC’s Privacy Program—2011

Part II

   Management’s Comments and OIG Evaluation                  II-1

   Management’s Comments                                     II-2

   Summary of Management’s Comments on the Recommendations   II-4
      Part I

Report by KPMG LLP
Audit of the FDIC’s Privacy Program–2011



Prepared for the
Federal Deposit Insurance Corporation
Office of Inspector General
September 19, 2011




KPMG LLP
2001 M Street, NW
Washington, DC 2003
                                                        TABLE OF CONTENTS


EXECUTIVE SUMMARY ......................................................................................................................I-3
BACKGROUND .......................................................................................................................................I-6
   WHAT IS PRIVACY?................................................................................................................................. I-6
   PRIVACY INFORMATION AT THE FDIC ................................................................................................... I-6
   CHARACTERISTICS OF A PRIVACY PROGRAM ......................................................................................... I-7
   FEDERAL REQUIREMENTS FOR PRIVACY PROGRAMS ............................................................................. I-7
   FDIC’S PRIVACY PROGRAM AND CHIEF PRIVACY OFFICER ROLES AND RESPONSIBILITIES................. I-7
RESULTS OF AUDIT .............................................................................................................................I-8
   SECTION 522 – CHIEF PRIVACY OFFICER, POLICIES, AND PROCEDURES ............................................... I-8
   SECTION 208 – PRIVACY IMPACT ASSESSMENTS ................................................................................... I-9
   PRIVACY ACT - SYSTEM OF RECORDS NOTICES ................................................................................... I-16
APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY ....................................................I-17
   OBJECTIVE ............................................................................................................................................ I-17
   SCOPE ................................................................................................................................................... I-17
   METHODOLOGY .................................................................................................................................... I-18
APPENDIX II – SIGNIFICANT CRITERIA ......................................................................................I-19
   APPLICABLE STATUTORY PRIVACY CRITERIA ..................................................................................... I-19
   APPLICABLE PRIVACY-RELATED OMB GUIDANCE ............................................................................. I-20
   APPLICABLE FDIC POLICY REGARDING PRIVACY ............................................................................... I-20
   OTHER RELEVANT PRIVACY GUIDANCE .............................................................................................. I-21
APPENDIX III – LIST OF ACRONYMS ............................................................................................I-22
APPENDIX IV – GLOSSARY OF TERMS ........................................................................................I-23




                                                                           I-2
                                      KPMG LLP
                                      2001 M Street, NW
                                      Washington, DC 20036-3389


EXECUTIVE SUMMARY

Honorable Jon T. Rymer
Inspector General
Federal Deposit Insurance Corporation
3501 N. Fairfax Drive
Arlington, VA 22226


Re: Transmittal of Results for the Audit of the FDIC’s Privacy Program–2011

Dear Mr. Rymer:

This report presents the results of our independent audit of the Federal Deposit Insurance
Corporation’s (FDIC) privacy program and practices. This performance audit is intended, in part, to
meet the requirements established by Section 522 of Division H of the Consolidated Appropriations
Act, 2005, as amended and now re-codified to 42 United States Code (U.S.C.) § 2000ee-2 (Section
522). The audit objective was to assess the FDIC’s privacy program and practices. The scope of the
audit focused on the FDIC’s processes for conducting and publicly posting Privacy Impact
Assessments (PIA) and System of Records Notices (SORN) for information systems and collections of
records that contain Personally Identifiable Information (PII).1 Specifically, the audit included an
assessment of the FDIC’s compliance with the following:

    (a) Section 208 of the E-Government Act of 2002 (Section 208)2 as it relates to performing PIAs,
    (b) Provisions of the Privacy Act of 1974 (Privacy Act) related to SORNs and privacy policy
        disclosures,
    (c) Section 522 requirements for establishing a privacy program and supporting privacy policies,
        and
    (d) Relevant privacy guidance established by OMB for SORNs and PIAs.

Our audit included a non-statistical3 selection of six collections of PII pertaining to business processes
within the Division of Resolutions and Receiverships (DRR). Within the FDIC, DRR has primary
responsibility for planning and efficiently handling the resolution of failing financial institutions,
including coordinating all efforts related to the analysis, valuation, marketing, and sale of failing or

1
  The Office of Management and Budget’s (OMB) Memorandum M-03-22, OMB Guidance for Implementing the Privacy
   Provisions of the E-Government Act of 2002, defines information in an identifiable form (IIF) as information in an
   information system or an on-line collection that directly identifies an individual (e.g., name, address, Social Security
   number (SSN), or other identifying code, telephone number, email address, etc.) or by which an agency intends to identify
   specific individuals in conjunction with other data elements. OMB Memorandum M-06-19, Reporting Incidents Involving
   Personally Identifiable Information and Incorporating the Cost for Security in Agency Information Technology
   Investments, introduces the term PII as a replacement for IIF. Our report uses the term PII to be consistent with more
   recent OMB memoranda, such as OMB Memorandum M-07-16, Safeguarding Against and Responding to the Breach of
   Personally Identifiable Information, and National Institute of Standards and Technology (NIST) guidance.
2
  The E-Government Act requires an agency to take certain actions before developing or procuring information technology
   that collects, maintains, or disseminates information that is in an identifiable form; or initiating a new collection of
   information that will be collected, maintained, or disseminated using information technology; and includes any information
   in an identifiable form permitting the physical or online contacting of a specific individual. These actions include
   conducting, preparing, and generally making a PIA publicly available.
33 A non-statistical sample is judgmental and, therefore, cannot be projected to the population.
                                                                   I-3
                                      KPMG LLP is a Delaware limited liability partnership,
                                      the U.S. member firm of KPMG International Cooperative
                                      (“KPMG International”), a Swiss entity.
failed institutions and associated assets such as residential mortgages, commercial loans, and other
consumer loans. For each collection selected, we assessed whether the FDIC conducted and publicly
posted the associated PIAs and SORNs consistent with relevant Federal privacy-related provisions in
Section 208, the Privacy Act, and OMB guidance. We also reviewed the 2 most recent SORNs created
within the last 3 years from a population of 32 SORNs.4 The scope of the audit did not include an
evaluation of access controls over PII collected and maintained by the FDIC as the Office of Inspector
General (OIG) planned to evaluate these controls as part of its annual independent security evaluation
required by the Federal Information Security Management Act (FISMA) of 2002.

On June 30, 2011, we shared our preliminary results with representatives of the Division of
Information Technology (DIT), DRR, and Legal Division. In preparing our report, we considered
feedback received from these officials.

We concluded that, except as noted below, the FDIC’s privacy program and practices for processing
PIAs and SORNs were compliant with selected provisions of Section 522, Section 208, the Privacy
Act, and OMB guidance. Among other things, the FDIC had appointed a Chief Privacy Officer (CPO)
with overall responsibility for the FDIC’s privacy program and submitted annual privacy reports to
OMB and the Congress as required by Section 522. Consistent with Section 208 and Privacy Act
requirements, the FDIC established processes for preparing PIAs and SORNs and making them
publicly available and posted its privacy policies on the FDIC’s public Web site. In addition, PIAs for
five of six PII collections sampled contained the required information regarding the FDIC’s collection
and use of PII. The one exception is described below. In addition, the two SORNs we sampled had
been properly approved by FDIC management, published in the Federal Register, and addressed the
content requirements of the Privacy Act. Further, the FDIC included the required legal disclosures,
referred to as a Privacy Act Statement, on all sampled DRR forms that collect PII from the public in
accordance with the Privacy Act.

While the above results are positive, we also found that for three of the six PII collections sampled, the
PIAs were not made available to the public until after the FDIC began collecting the PII. Additionally,
the PIA covering one of six sampled PII collections did not fully describe (a) what information was
being collected, (b) the purpose of the collection, or (c) how the information was secured.

Our report includes recommendations intended to strengthen the Corporation’s privacy program
practices pertaining to PIAs and SORNs. Specifically, we are recommending that the CPO issue a
corporate-wide policy requiring PIAs to be completed before collecting, maintaining, or disseminating
PII. We are also recommending that the FDIC develop strategies for (1) elevating, reporting, and
resolving instances of non-compliance with privacy-related requirements and (2) identifying instances
of new PII collections that occur outside of the traditional systems development lifecycle that might
require a PIA.

The American Institute of Certified Public Accountants (AICPA) developed the Generally Accepted
Privacy Principles (GAPP) as a framework to help organizations proactively manage privacy risks.
GAPP provides a set of recommended privacy practices to help organizations build effective privacy
programs. FDIC management has voluntarily adopted aspects from the 10 principles of GAPP and
incorporated those principles and associated practices into the FDIC’s Privacy Program Strategic
Framework, dated August 11, 2008. We compared the FDIC’s privacy monitoring activities to one

4
 The prior 30 SORNs were created from 1975 to 2007. As these SORNs existed for a substantial amount of time prior to our
audit, we did not select them for testing. We analyzed the more recent SORNS to obtain a more representative sample of the
FDIC’s current Privacy Act compliance practices. These two SORNs were FDIC-30-64-0032, Nationwide Mortgage Licensing
System and Registry, and FDIC-30-64-0031, Online Ordering Request Records. They are publicly available at
http://www.fdic.gov/regulations/laws/rules/2000-4050.html#fdictail.
                                                            I-4
GAPP principle, Monitoring and Enforcement, and the related criteria, controls, and procedures that
can be used by an organization to monitor compliance with its privacy policies and procedures. As the
FDIC is not required by policy or statute to implement GAPP, we have separately communicated the
results of this comparison to the FDIC.

We conducted our performance audit in accordance with Generally Accepted Government Auditing
Standards (GAGAS) issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit objective.

We tested the FDIC’s privacy processes that were implemented as of May 10, 2011. We caution that
projecting the results of our audit to future periods is subject to the risks that controls may become
inadequate because of changes in conditions or because compliance with controls may deteriorate.

Appendix I provides the objective, scope, and methodology of this performance audit; Appendix II lists
significant criteria; Appendix III provides a list of acronyms; and Appendix IV provides a glossary of
terms.

Sincerely,




September 19, 2011




                                                 I-5
KPMG’s Audit of the FDIC’s Privacy Program – 2011

BACKGROUND
What is Privacy?
The concept of “privacy” is one whose meaning differs depending on the individual, the culture, or the
context of its use. From a legal perspective, “privacy” means “the right to be free of unnecessary public
scrutiny or to be left alone.”5 Within the Federal Government, privacy refers to information about U.S.
citizens and their right to privacy. Within that context, privacy is defined as the ability of a person to
control the availability of information about them, especially information that may be used to uniquely
identify that individual. Protecting this information and ensuring each individual’s right to privacy is
fundamental to promoting trust in Government and ensuring the rights of the people.

Balancing the need for protecting the privacy of U.S. citizens is the need for the U.S. Government to
deliver services to beneficiaries of Government programs efficiently. Information systems provide the
U.S. Government significant capabilities to deliver these services and benefit programs efficiently.
Without the trust and confidence of the public to voluntarily share PII, most Government agencies could
not efficiently and effectively carry out their program’s mission. The growth in the collection of PII
reflects the essential need for Government agencies to use PII. In the 2009 FISMA report to the
Congress,6 OMB reported that the number of Federal information systems collecting and processing PII
increased 31 percent from 2007 to 2009. Parallel with the increase in the collection of PII are media
reports of identity theft and massive losses of PII records, such as an incident that occurred at a Federal
agency where a lost laptop contained PII on 26 million veterans.
Privacy Information at the FDIC
In its capacity as the Receiver of failing or failed financial institutions, the FDIC collects significant
quantities of PII from failing or failed financial institutions. Such information includes, for example,
sensitive PII, such as names, addresses, SSNs, phone numbers, dates of birth, and account and loan data
for institution depositors, borrowers, and employees. The FDIC utilizes this sensitive PII in many
resolution activities, such as paying depositor claims, valuing assets (e.g., loans) from failed institutions,
and pursuing claims against individuals that contributed to the financial institution’s failure.

With the significant increase in resolution and receivership activity in 2009 and 2010, the FDIC
contracted with third parties to perform many duties associated with closing financial institutions and
selling acquired assets. To address the risks associated with vendors processing sensitive PII on the
FDIC’s behalf, the FDIC’s Information Security and Privacy Staff (ISPS) began performing security and
privacy risk assessments for vendors that process significant amounts of sensitive bank customer data. As
part of each vendor privacy risk assessment, ISPS completed a 51-question privacy assessment,
conducted an interview with the vendors, and prepared a vendor assessment report. ISPS also reported
that it continued its practice of performing physical security walkthroughs in 2009 to identify unsecured
PII.




5
    Nolo’s Plain-English Law Dictionary.
6
    OMB’s Fiscal Year 2009 Report to Congress on the Implementation of the Federal Information Security Management Act of 2002
     found at http://www.whitehouse.gov/sites/default/files/omb/assets/egov_docs/FY09_FISMA.pdf.
                                                               I-6
KPMG’s Audit of the FDIC’s Privacy Program – 2011

Characteristics of a Privacy Program
Government organizations must balance the implementation of                         Privacy Program
mission objectives and business functions with risk.
Maintaining this balance requires organizations to establish a
privacy program encompassing multiple facets, such as an
organization’s people, processes, and technology. The exhibit
Privacy Program depicts seven components of a privacy
program found in leading organizations. An effective privacy
program provides protection to information and information
systems from unauthorized access, use, or disclosure in order to
maintain the confidentiality of information. The confidentiality
of information has a major impact on the operations and assets
of an organization as well as the welfare of individuals.


Federal Requirements for Privacy Programs
The passage of Section 522 in the Consolidated Appropriations
Act of 2005 established the requirement that federal agencies
implement formal Privacy Programs.7 Prior to the passage of
Section 522, many federal agencies divided implementation
responsibilities for the Privacy Act and the E-Government Act
with varying degrees of success. Congress recognized the need
for agencies to unify disparate activities under a single program
to improve efficiency and effectiveness; and thus it established
the Privacy Program requirements in Section 522.                                 Source: KPMG analysis of Federal privacy legislation
                                                                                 and OMB requirements.
Section 522 requires the agency’s CPO to have primary
responsibility for agency privacy and data protection policies. As part of that responsibility, the CPO
must assure that the agency’s use of technology sustains privacy protections. The CPO must also prepare
an annual report to the Congress on the activities that affect privacy, including complaints of privacy
violations, and implementation of related internal controls.8


FDIC’s Privacy Program and Chief Privacy Officer Roles and Responsibilities
The FDIC Chief Information Officer (CIO) serves as the CPO and reports directly to the FDIC Chairman.
The CPO is a statutorily-mandated position and serves as the Senior Agency Official for Privacy
responsible for establishing and implementing a wide range of privacy and data protection policies and
procedures pursuant to various legislative and regulatory requirements.           In executing these
responsibilities, the CPO collaborates and consults with the FDIC’s Legal Division; the divisional
Information Security Managers; the Privacy Counterparts Committee; and individuals within the Division
of Risk Management Supervision.9




7
  While Section 522 does not define “agency,” the FDIC determined that the better course would be to comply with this Section.
8
  Annually, the FDIC CPO prepares and submits responses to OMB’s privacy questions as part of the Corporation’s FISMA report to
   OMB and the Congress. This annual submission satisfies Section 522 reporting requirements.
9
  During the audit period, the Division of Supervision and Consumer Protection changed their name to the Division of Risk
   Management Supervision effective February 13, 2011 to recognize its new and enhanced responsibilities under the Dodd-Frank
   Wall Street Reform and Consumer Protection Act.
                                                              I-7
KPMG’s Audit of the FDIC’s Privacy Program – 2011

RESULTS OF AUDIT
We concluded that, excepted as noted later in the report, the FDIC’s privacy program and practices for
processing PIAs and SORNs were compliant with selected provisions of Section 522, Section 208, the
Privacy Act, and OMB guidance. Among other things, the FDIC had appointed a CPO with overall
responsibility for the FDIC’s privacy program and submitted annual privacy reports to OMB and the
Congress as required by Section 522. Consistent with Section 208 and Privacy Act requirements, the
FDIC established processes for preparing PIAs and SORNs and making them publicly available and
posted its privacy policies on the FDIC’s public Web site. In addition, PIAs for five of six PII collections
sampled contained the required information regarding the FDIC’s collection and use of PII. The one
exception is discussed later in the report. In addition, the two SORNs we sampled had been properly
approved by FDIC management, published in the Federal Register, and addressed the content
requirements of the Privacy Act. Further, the FDIC included the required legal disclosures, referred to as
a Privacy Act Statement, on all sampled DRR forms that collect PII from the public in accordance with
the Privacy Act.

While the above results are positive, we also found that for three of the six PII collections sampled, the
PIAs were not made available to the public until after the FDIC began collecting the PII. Additionally,
the PIA covering one of six sampled collections of PII did not fully describe (a) what information was
being collected, (b) the purpose of the collection, or (c) how the information was secured.
Section 522 – Chief Privacy Officer, Policies, and Procedures
Section 522 of the Consolidated Appropriations Act of 2005, re-codified to 42 U.S.C. § 2000ee-2, is the
most recent addition to the privacy statutory landscape that governs the privacy practices of Federal
agencies. This legislation expands on the foundation and framework laid by the Privacy Act and the
E-Government Act by instituting programmatic level requirements and re-enforcing the provisions of
prior legislation.

Section 522 establishes two ongoing requirements for those Federal agencies that are bound by that
Section. First, the agencies must appoint a CPO and delegate to that individual specific responsibilities
related to privacy operations. Second, the agencies must establish comprehensive privacy and data
protection policies and procedures that are consistent with regulatory guidance, including the Privacy Act,
E-Government Act, and OMB guidance.

KPMG evaluated the FDIC’s Privacy Program for compliance with selected Section 522 requirements.
Specifically, KPMG determined whether the FDIC appointed a CPO, assigned responsibilities to the CPO
consistent with the legislation, and developed policies and procedures to implement the Privacy Act and
Section 208. For both the Privacy Act and E-Government Act, KPMG determined whether the FDIC’s
written policies and procedures addressed the legislative requirements of the Privacy Act, Section 208,
and Section 522.

In March 2005, the FDIC appointed a senior official, the CIO, as the FDIC’s CPO with overall
responsibility for the Corporation’s Privacy Program. The FDIC also designated a Privacy Program
Manager to support the CPO in developing and implementing corporate privacy requirements. Through
the Privacy Program Office, the FDIC has instituted a mandatory, online annual privacy-training program
for all employees and all contractors who have access to the FDIC’s internal network. Supplementing the
annual privacy training are periodic email reminders from the FDIC CIO to safeguard sensitive
information, including PII, and privacy awareness posters posted adjacent to shared printers and copiers.
Further, to promote the secure destruction of sensitive information, the FDIC has placed shred bins in
hallways throughout the FDIC’s Washington, D.C., and Virginia Square offices.

                                                    I-8
KPMG’s Audit of the FDIC’s Privacy Program – 2011

Section 208 – Privacy Impact Assessments
Section 208 includes requirements for Federal agencies to conduct PIAs prior to initiating a new
collection of PII or developing or procuring information technology (IT) systems or projects that collect,
maintain, or disseminate information in an identifiable form from or about members of the public, or
initiating, consistent with the Paperwork Reduction Act, a new electronic collection of information in an
identifiable form for 10 or more persons (excluding agencies, instrumentalities, or employees of the
Federal Government). PIAs are required to be performed and updated as necessary where a system
change creates new privacy risks. Additionally, if practical, completed PIAs should be made publicly
available through the Web site of the agency, publication in the Federal Register, or other means. Section
208 also requires that published PIAs describe, among other things, what information is to be collected,
why the information is being collected, and the agency’s intended use of the information. The FDIC has
determined that the Corporation is subject to the above provisions of Section 208.

OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
E-Government Act, dated September 26, 2003, provides guidance for implementing provisions of Section
208. Among other things, the OMB memorandum provides details on the required content of PIAs.10
Specifically, the memorandum states that agencies must conduct reviews of how information about
individuals is handled within their agency and that agencies must prepare PIAs, which describe the type
of information to be collected (e.g., nature and source); why the information is being collected (e.g., to
determine eligibility); and the intended use of the information (e.g., to verify existing data). OMB states
that Memorandum M-03-22 applies to agencies and their contractors that use IT or that operate Web sites
for purposes of interacting with the public.

The FDIC has established policies and procedures that require divisions and offices to complete a privacy
questionnaire, referred to as a Privacy Threshold Analysis (PTA), whenever new information systems11
are developed or acquired. Specifically, the FDIC’s procurement policy requires FDIC divisions and
offices to complete PTAs when contracting for IT. The purpose of the PTA is to help the Privacy
Program Office determine whether the information system contains (a) public sensitive PII and is subject
to Section 208’s PIA requirement (external PIA) or (b) employee/contractor sensitive PII and is subject to
internal FDIC procedures for preparing PIAs (internal PIA). PTAs are submitted to, and analyzed by, the
Privacy Program Office.

For systems that are subject to Section 208 and/or FDIC internal procedures, the division or office
sponsoring the IT project or acquisition must prepare a PIA. A single PIA may cover one or more PII
collections (see the following table for examples). The division or office is responsible for providing
completed PIAs to the Privacy Program Office for review and approval. When a PIA for a system
containing public sensitive PII is approved by the Privacy Program Office and CPO, the PIA is made
available to the public through a notice posted on the FDIC’s public Web site.12 Additionally, PIAs for
systems containing employee/contractor sensitive PII are posted on FDIC’s internal Privacy Program
Web site as a best practice. Both external and internal PIAs are approved by the CPO or designee.
We selected six collections of PII and assessed whether the associated PIAs (a) contained required
information describing the FDIC’s collection and use of the PII and (b) were completed and made
publicly available before the FDIC began collecting the PII. We found that for five of the six collections,
the associated PIAs contained sufficient information regarding the collection or use of the PII. However,

10
   Section 208 delegates to the OMB Director the responsibility to develop specific implementation requirements for the provisions of
   the legislation.
11
   The E-Government Act of 2002 defines an “information system” as a discrete set of information resources organized for the
   collection, processing, maintenance, use, sharing, dissemination, or disposition of information. See 44 U.S.C. § 3502(8). According
   to the FDIC’s PTA form, all technologies/systems should be initially reviewed for potential privacy impact.
12
   The availability of the FDIC’s PIAs are posted at http://www.fdic.gov/about/privacy/assessments.html. Interested citizens may
   request a specific PIA for review by email to privacy@fdic.gov.
                                                                 I-9
KPMG’s Audit of the FDIC’s Privacy Program – 2011

information regarding the collection and use of PII for the remaining collection was not sufficiently
described in the associated PIA. We also noted that the PIAs had not been completed and made publicly
available before the FDIC began collecting PII for three of the six collections. Notably, as described
below, one of these three exceptions involved an information system established in 1997, which pre-dated
the requirement for conducting PIAs. As of May 10, 2011, the FDIC had taken action to make PIAs
covering all six PII collections publicly available. The table summarizes the PII collections that we
selected and the results of our analysis. A more detailed discussion of the exceptions we found follows
the table.

Summary Analysis of Section 208 Compliance for Selected Collections of PII
                       PII Collection                       Associated PIA That       Did the PIA        Was the
                                                             Addresses the PII          Contain        Information
                                                                Collection            Information     Regarding the
                                                                                     Regarding the    PII Collection
                                                                                     Collection and      and Use
                                                                                       Use of PII?     Available to
                                                                                                        the Public
                                                                                                        Prior to its
                                                                                                       Collection?
 1    Depositor claims for a closed financial               Claims Administration         Yes              Yes
      institution.                                           System (CAS) PIA
 2    Depositor liabilities information obtained from             CAS PIA                 Yes              Yes
      failed institution information system during
      Pre-close phase.
 3    Professional liability claims against directors        DRR Locations and            Yes              Not
      and officers of failed financial institutions.          Reporting System                         Applicable –
                                                              (DOLLARS) PIA                             Pre-2002*
 4    Digital images of loan files for cash asset sales.    PIA for a confidential        Yes              No
                                                              financial advisory
                                                              firm’s ShareVault
                                                                   system
 5    Loan file images maintained by DRR’s Asset            PIA for a confidential        Yes              No
      Marketing for the valuation of assets by third-       IT provider’s Virtual
      party asset valuation contractors.                     Data Room system
 6    Persons of Interest (POI) collection maintained          DOLLARS PIA              In Part          In Part
      by DRR’s Investigations Unit.
Source: KPMG analysis of the FDIC’s procedures pertaining to the six selected PII collections as of May 10, 2011.
The Privacy Program Office identified the four PIAs referenced above as covering the six selected collections.
* DOLLARS began processing PII in 1997, approximately 6 years before Section 208 required Federal agencies to
complete PIAs and make them publicly available.




                                                           I-10
KPMG’s Audit of the FDIC’s Privacy Program – 2011

Timeliness of PIAs

We identified the following three exceptions regarding the timeliness of PIAs.

            Digital Images of Loan Files for Cash Asset Sales (ShareVault)
            The FDIC, as Receiver for failed financial institutions, assumes the task of collecting and selling
            assets from failed financial institutions. The FDIC contracted with a financial advisory firm that
            specializes in conducting online auctions of loans from failed institutions to qualified bidders. On
            behalf of the FDIC, the financial advisory firm utilized a proprietary system, called ShareVault,
            to process and maintain digital images of loan files for cash sales to qualified bidders. These loan
            files contained PII, such as SSNs, dates of birth, drivers’ licenses, bank account numbers, tax
            returns, credit reports, and employment information. DRR began collecting PII and using the
            ShareVault system in October 2009 to market the assets from a failed financial institution. The
            PIA was made publicly available on May 3, 2011, approximately 19 months after the FDIC began
            collecting and storing PII in the ShareVault system.

            Loan File Images Maintained by DRR’s Asset Marketing for the Valuation of Assets by Third-
            Party Asset Valuation Contractors (Virtual Data Rooms)
            In its capacity as Receiver for failed financial institutions, the FDIC contracted with an IT
            provider to provide a private data-sharing environment, called Virtual Data Rooms, to facilitate
            the exchange of data between the FDIC and third parties. The FDIC utilized these Virtual Data
            Rooms to market billions of dollars in assets. The Virtual Data Rooms contained significant
            quantities of PII, such as borrower names, SSNs, dates of birth, and home addresses, in digital
            loan files. Valuation contractors used the Virtual Data Rooms and accompanying digital loan
            files to support Structured Asset Sales transactions by the FDIC.

            The FDIC did not store PII in Virtual Data Rooms when it began using them in September 2000.
            DRR officials had begun using Virtual Data Rooms to maintain PII in the fall of 2008. The PIA
            associated with the Virtual Data Rooms was finalized and made publicly available on
            May 10, 2011, approximately 30 months after the FDIC began collecting and storing PII in
            Virtual Data Rooms.

            Persons of Interest (POI) Collection Maintained by DRR’s Investigations Unit
            DRR maintains this PII collection in a password-protected Excel spreadsheet and uses it to track
            directors, officers, mortgage brokers, real estate agents, appraisers, and others who are suspected
            of contributing to the failure of financial institutions. Investigators access the spreadsheet when
            screening potential FDIC employees and contractors. As of January 27, 2011, the spreadsheet
            contained the names, SSNs, and dates of birth for approximately 4,600 individuals. According to
            DRR officials, many of the individuals contained in the POI collection were not stored in
            DOLLARS13 or any other FDIC information system as of January 2011. The investigators
            indicated that they developed the spreadsheet because DOLLARS did not have the capability to
            efficiently compare groups of potential FDIC employees and contractors against the names stored
            in DOLLARS. This POI collection was initiated after the completion of the DOLLARS PIA. In
            addition, the PIA had not been updated to include the new intended use, the new PII data type
            collected (i.e., date of birth), or associated protections taken to secure the POI collection.

Section 208 requires Federal agencies, including the FDIC, to conduct PIAs of information systems and
collections and, in general, make PIAs publicly available before—

13
     The FDIC identified the DOLLARS PIA as covering the POI Collection Maintained by the DRR Investigations Unit.
                                                              I-11
KPMG’s Audit of the FDIC’s Privacy Program – 2011


            1. Developing or procuring IT that collects, maintains, or disseminates PII; or
            2. Initiating a new collection of information that—
               a. will be collected, maintained, or disseminated using IT; and
               b. includes any PII permitting the physical or online contacting of a specific individual, if
                    identical questions have been posed to, or identical reporting requirements were imposed
                    on, 10 or more persons, other than agencies, instrumentalities, or employees of the
                    Federal Government.

Additionally, OMB Memorandum M-03-22 supplements Section 208 requirements for preparing and
making a PIA publicly available and indicates that PIA requirements apply to “agencies and their
contractors that use information technology or that operate Web sites for purposes of interacting with the
public.” The FDIC formally assessed the PII collections in the financial advisor’s ShareVault system and
the IT provider’s Virtual Data Rooms using a PTA and determined that both systems were subject to
Section 208 requirements and required a PIA. However, Privacy Program staff advised us that the PIA
requirements of Section 208 are not legally binding with respect to the ShareVault system and Virtual
Data Rooms because the systems provide an “information service” that does not meet the intent of
“developing or procuring information technology that collects, maintains, or disseminates PII” as
referenced in Section 208. Nevertheless, the officials did recognize privacy risks associated with these
systems and indicated that, as a best practice, the FDIC requires that PIAs be performed for all vendors
maintaining sensitive PII data on behalf of the Corporation.

Several factors contributed to the conditions described above. Some of the factors were specific to the PII
collections and systems that we reviewed, while others were broader in nature.

            Virtual Data Rooms
            DRR officials began using Virtual Data Rooms to maintain PII in the fall of 2008, but did not
            notify the Privacy Program Office of this change in business practice. The Privacy Program
            Office identified the need for a PIA in February 2009 while conducting an internal assessment,
            and subsequently communicated this need in a report to DRR management.14 DIT did not
            identify the need for a PIA before 2009 because the storage of PII in Virtual Data Rooms did not
            require a software modification and, therefore, was not subject to the FDIC’s software
            development process, called Rational Unified Process (RUP®). RUP® includes procedures for
            ensuring that a PIA is developed whenever an application processes sensitive PII. DRR provided
            the Privacy Program Office with a draft PIA on May 27, 2009. The PIA was approved and made
            publicly available in May 2011.

            The Office of the Inspector General (OIG) previously identified the need to complete a PIA for
            Virtual Data Rooms and make it publicly available in its report on the Independent Evaluation of
            the FDIC’s Information Security Program—2009 (AUD-10-001), dated November 2009. The
            report noted that DIT could help mitigate the risk of a similar situation recurring by emphasizing
            in awareness and training materials the importance of consulting with the Privacy Program Office
            before using PII in information systems. In response, DIT took actions in June 2010 by
            developing additional privacy training.




14
     Privacy/Security Assessment of the Division of Resolutions and Receiverships’ (DRR) Bank Resolution Pre-Closing Process, dated
     April 23, 2009.
                                                                 I-12
KPMG’s Audit of the FDIC’s Privacy Program – 2011

             ShareVault System
             DRR informally determined that a PIA was needed for the financial advisor’s ShareVault system
             in July 2009, which was 3 months before ShareVault began processing PII. According to a DRR
             information security professional, due to higher-priority concerns with the ongoing crisis in the
             banking sector, DRR did not prepare a PIA for the ShareVault system when it began processing
             PII in October 2009. DRR provided a draft PIA to the Privacy Program Office in February 2010.
             The PIA was approved and made publicly available in May 2011.

             General Factors
             With respect to contractor-operated information systems and/or services (such as the Virtual Data
             Rooms and the ShareVault system), a Privacy Program staff member advised us that project
             teams generally submit draft PIAs to the Privacy Program after (rather than before) the contract is
             awarded and the vendor begins processing data on behalf of the FDIC. The FDIC does not have a
             corporate-wide policy requiring FDIC divisions and offices to publish PIAs prior to the
             implementation of a vendor-operated system or service. As previously stated, RUP® includes
             procedures for ensuring that a PIA is developed for applications that process PII. However,
             contractor-operated information systems and/or services are typically not subject to RUP®.

             Privacy Program staff advised us that they were working to develop a corporate-wide policy15
             that would describe the roles, responsibilities, and circumstances surrounding when PIAs are
             required. This policy could include a requirement for divisions and offices to finalize PIAs
             before FDIC or contractor-operated systems and/or services collect, maintain, or disseminate PII.
             Such a requirement would be consistent with Section 208 requirements.

             As of April 2011, the Privacy Program Office was tracking and working to address eight
             additional information systems that were processing PII without a completed and publicly
             available PIA.16 Although not required by statute or policy, the FDIC may find it beneficial to
             develop a strategy for elevating, reporting, and resolving instances of non-compliance with
             privacy-related requirements, including PIA requirements. Such a strategy, which could be
             referenced in the corporate-wide policy discussed above, would help focus management attention
             on the need for prompt action in resolving instances of non-compliance with privacy
             requirements when competing priorities exist. It may also help mitigate delays in completing
             PIAs, such as those experienced with the financial advisor’s ShareVault system and the IT
             provider’s Virtual Data Rooms.

PIAs are intended to promote the public trust through increased transparency and assurances that personal
information maintained by or for a Federal agency is protected. When PIAs are not completed and made
available to the public in a timely manner, it reduces the FDIC’s assurance that it had performed the
necessary risk assessment and informed the public, in a timely manner, of the FDIC’s collection and use
of the information.




15
     Draft FDIC Circular, entitled Privacy Impact Assessment Requirements.
16
     These systems were not part of our sample. Six of the eight systems involved applications dealing with secure email, email archival
     solutions, voicemail, and other communication technologies with the public. The Privacy Program staff are evaluating alternatives
     for presenting the information for these six systems to either the public or employees. For the remaining two systems involving
     public PII, the PIAs are expected to be completed by year-end according to Privacy Program staff.
                                                                  I-13
KPMG’s Audit of the FDIC’s Privacy Program – 2011

Recommendations

We recommend that the CPO:

    1. Finalize and issue the draft corporate policy on PIA requirements and include clarifying language
       in the policy that requires PIAs to be completed and publicly available before collecting,
       maintaining, or disseminating PII.

    2. Enhance Privacy Program controls by defining a strategy for elevating and reporting instances of
       non-compliance with relevant Federal privacy requirements to appropriate senior management
       officials who are in a position to ensure they are promptly and effectively resolved.

Content of PIAs

PIAs for five of the six PII collections that we reviewed described the FDIC’s collection and use of PII
and identified the associated SORN. However, the PIA for the remaining collection—POI Collection
maintained by the DRR Investigations Unit—did not fully describe (a) what information was being
collected, (b) the purpose of the collection, or (c) how the information was secured. The FDIC identified
the DOLLARS PIA as covering the POI Collection maintained by the DRR Investigations Unit. The POI
Collection maintained by the DRR Investigations Unit resides in a password-protected Excel spreadsheet
that was developed by DRR investigators to track directors, officers, mortgage brokers, real estate agents,
appraisers, and others suspected of contributing to the failure of financial institutions. Investigators
access the spreadsheet when screening potential FDIC employees and contractors. The investigators
advised us that, as of January 2011, the POI collection contained specific PII information that was not in
DOLLARS or any other FDIC information system. As of January 2011, the spreadsheet contained the
names, SSNs, and dates of birth for approximately 4,600 individuals.

Section 208 requires that published PIAs describe, among other things, what information is to be
collected, why the information is being collected, and the agency’s intended use of the information.
OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy Provisions of the
E-Government Act, provides detailed information regarding the required content of PIAs. The OMB
memorandum states that PIAs must analyze and describe the type of information to be collected (e.g.,
nature and source), why the information is being collected (e.g., to determine eligibility), and the intended
use of the information (e.g., to verify existing data).

The Privacy Program Office did not identify the need to update the DOLLARS PIA for the POI
Collection because DRR officials did not identify the POI spreadsheet as a new collection of PII.
Additionally, the spreadsheet was not subject to the RUP® software development process and the
associated analysis for potential privacy requirements.

FDIC officials advised us that employees and contractors often create spreadsheets and databases using
data from FDIC information systems for the purpose of facilitating analysis. Such spreadsheets are
generally covered by existing PIAs. However, in the case of the spreadsheet described above, the data
was not derived from another FDIC information system. Rather, it was derived from failed financial
institution files, and the PII collection was not covered by an existing PIA.

We recognize that it is not cost-beneficial to conduct a review of every spreadsheet or database that an
FDIC employee or contractor creates to determine whether a PIA is required. However, the FDIC could
benefit from developing a strategy to help identify and address instances of new PII collections that occur
outside of the traditional systems development life cycle that might require a PIA. Such a strategy could
                                                    I-14
KPMG’s Audit of the FDIC’s Privacy Program – 2011

consist of increased emphasis in the FDIC’s annual privacy awareness materials regarding the importance
of contacting the Privacy Program Office when creating new PII collections, conducting periodic reviews
to identify such collections, and/or enhancing the Privacy Program Office’s ongoing monitoring activities
to help identify data collections outside of the systems development life cycle.

Absent an update to the DOLLARS PIA that addresses information related to the POI Collection by the
DRR Investigations Unit, the FDIC has reduced assurance that it has adequately assessed the risk of
collecting, monitoring, and using the information and informed the public, in a timely manner, of the
FDIC’s collection and use of the information.

Subsequent to sharing our preliminary audit results with the FDIC on June 30, 2011, the Privacy Program
Office revised the DOLLARS PIA to incorporate the POI Collection maintained by the DRR
Investigations Unit and made it publicly available on July 25, 2011. We are, therefore, making no
recommendation regarding the need for a PIA for this PII collection.

Recommendation

We recommend that the CPO:

    3. Develop a strategy to help identify and address instances of new PII collections that occur outside
       of the traditional systems development life cycle that might require a PIA.




                                                  I-15
KPMG’s Audit of the FDIC’s Privacy Program – 2011

Privacy Act - System of Records Notices

The Privacy Act includes requirements for Federal agencies, including the FDIC, to inform the public of
the existence of systems of records that contain PII and to “establish appropriate administrative, technical
and physical safeguards to insure the security and confidentiality of records.”17 For the purposes of the
Privacy Act, a system of records is “a group of any records under the control of any agency from which
information is retrieved by the name of the individual or by some identifying number, symbol, or other
identifying particular assigned to the individual.”18

The Privacy Act also requires that agencies publish a notice “upon the establishment or revision” of a
system of records. OMB has determined that the notice must be published before the system or records
becomes “operational.” OMB’s original interpretation of “operational” meant, “Before any information
about individuals is collected.” In 1996, OMB clarified that interpretation so that it applies to the
collection and use of the information. Additionally, if the agency is publishing a new “routine use” of the
information in the system or records, the notice must be published at least 30 days before the release of
the information.”19 At the FDIC, SORNs are published after authorization by the Board of Directors.

We selected two SORNs published by the FDIC in the Federal Register to determine whether the SORNs
(a) had been approved by the FDIC’s Board of Directors, (b) were published in the Federal Register at
least 30 days prior to the collection and use of PII, and (c) satisfied the content requirements defined in
the Privacy Act.20 These two SORNs were FDIC-30-64-0032, Nationwide Mortgage Licensing System
and Registry, published on March 21, 2011; and FDIC-30-64-0031, Online Ordering Request Records,
published on October 26, 2009.

We determined that the Board had approved the SORNs for both systems prior to being published in the
Federal Register and that the SORNS were published with appropriate notice and addressed the content
requirements of the Privacy Act.




17
   The Privacy Act of 1974, 5 U.S.C. § 552a(e)(10).
18
   The Privacy Act of 1974, 5 U.S.C. § 552a(a)(5).
19
   See id., § 552a(e)(4) and (e)(11), and OMB’s Privacy Act Guidelines (published July 9, 1975) as well as Appendix I, Federal
   Agency Responsibilities for Maintaining Records About Individuals to OMB Circular No. A-130 (published February 20, 1996).
20
   KPMG assessed the nine required elements of a SORN: 1) system location and name; 2) categories of individuals covered by the
   system; 3) categories of records in the system; 4) purpose and routine uses of records maintained; 5) policies and practices for
   storing, retrieving, accessing, retaining, and disposing of records in the system; 6) system manager and address; 7) notification and
   records access procedure; 8) contesting record procedure; and 9) record source categories. Federal Register, Vol. 74, (October 26,
   2009).
                                                                 I-16
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                                     Appendix I

APPENDIX I – OBJECTIVE, SCOPE, AND METHODOLOGY
Objective
The audit objective was to assess the FDIC’s privacy program and practices. Specifically, the audit
included an assessment of the FDIC’s compliance with the following:

       (a) Section 208 of the E-Government Act of 2002 (Section 208) as it relates to performing PIAs,
       (b) Provisions of the Privacy Act of 1974 (Privacy Act) related to SORNs and privacy policy
           disclosures,
       (c) Section 522 requirements for establishing a privacy program and supporting privacy policies, and
       (d) Related privacy guidance established by OMB for SORNs and PIAs.


Scope
As required by our task assignment with the FDIC OIG, KPMG evaluated the FDIC’s compliance with
Federal privacy-related statutes and other criteria agreed upon with the OIG. KPMG completed a formal
analysis of Federal privacy-related statutes and relevant FDIC policy to identify areas that KPMG would
use to assess the FDIC's compliance with Section 522, the Privacy Act of 1974, Section 208 of the
E-Government Act, and OMB Memorandum M-03-22 OMB Guidance for Implementing the Privacy
Provisions of the E-Government Act of 2002 (OMB M-03-22).

Based on the analysis of privacy criteria, the scope of the audit focused exclusively on the following areas
listed below:

       1.    Establishment of a Privacy Program
       2.    Policies and Procedures for Privacy
       3.    System of Record Notices (SORNs)
       4.    Privacy Impact Assessments (PIAs)
       5.    Privacy Policy Disclosure
       6.    Privacy Act Statements

KPMG selected the above areas for testing as Section 522 makes multiple references to the Privacy Act of
1974, Section 208, and OMB M-03-22. KPMG prioritized its testing to determine compliance with key
provisions of Section 522, Privacy Act, E-Government Act and/or OMB regulations. The audit did not
include an evaluation of access controls over PII collected and maintained by the FDIC as the OIG
planned to evaluate these controls as part of its annual FISMA audit.

Our audit included a non-statistical21 selection of six collections of PII pertaining to business processes
within DRR. For each collection, we assessed whether the FDIC conducted and publicly posted the
associated PIAs and SORNs consistent with relevant Federal privacy-related requirements in Section 208,
the Privacy Act, and OMB guidance. We also analyzed the two most recent SORNs created within the
last 3 years from a population of 32 SORNs.

The AICPA developed the GAPP as a framework to help organizations proactively manage privacy risks.
GAPP provides a set of recommended privacy practices to help organizations build effective privacy
programs. The FDIC’s Privacy Program has voluntarily adopted aspects from the 10 principles of GAPP
and incorporated those principles and associated practices into the FDIC’s Privacy Program Strategic
Framework, dated August 11, 2008. We compared the FDIC’s monitoring activities to one GAPP
principle, Monitoring and Enforcement, and the related criteria, controls, and procedures that can be used

21
     A non- statistical sample is judgmental and, therefore, cannot be projected to the population.
                                                                     I-17
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                           Appendix I

by an organization to monitor compliance with its privacy policies and procedures. As the FDIC is not
required by policy or statute to implement GAPP, we have separately communicated the results of this
analysis to the FDIC.

KPMG did not perform procedures to determine the validity or reliability of computer-based data. In
general, electronic or computer data was not critical to satisfy the audit objective. KPMG conducted
alternative procedures through interviews of application owners to determine the presence of PII data and
the status of privacy initiatives. In addition, KPMG’s assessments of the FDIC’s management controls
and compliance with laws and regulations were limited to those related to privacy, particularly those
dealing with agency privacy-management requirements. Further, KPMG did not design tests to detect
fraud, waste, abuse, and mismanagement. However, throughout the audit, KPMG was sensitive to the
potential for fraud, waste, abuse, and mismanagement.
Methodology
In consultation with the FDIC OIG, we developed an audit approach based on our review of privacy
legislative requirements and FDIC policies, procedures, and guidelines. The audit approach included the
evaluation of a selection of internal control activities supporting compliance with legal requirements
(Privacy Act, E-Government Act, Section 522, and OMB guidance). We considered risks, results of
internal reviews, Government-wide and FDIC goals, the maturity of the privacy program, and other
factors in making our selection. We evaluated the selected activities for a subset of collections of PII
identified through review of FDIC business processes. We conducted interviews with appropriate FDIC
personnel to obtain an understanding of each privacy control activity within the scope of the audit.
Additionally, we reviewed FDIC documentation applicable to privacy, including FDIC directives, DIT
internal policies, and the FDIC’s Privacy Program Strategic Framework describing the FDIC’s risk
management framework and internal control activities. The Results of Audit section of this report
presents the results of our review of these activities.

This audit did not assess controls at depository institutions, insured or regulated by the FDIC, that
routinely provide financial information to the Corporation. We performed the audit at the FDIC’s offices
in Arlington, Virginia, from December 6, 2010 to June 30, 2011, and tested controls that were
implemented as of May 10, 2011 for the six sampled collections of PII and two sampled SORNs.
Throughout the audit, we met with FDIC management to discuss preliminary observations.

KPMG conducted this performance audit in accordance with GAGAS issued by the Comptroller General
of the United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives.




                                                  I-18
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                               Appendix II

APPENDIX II – SIGNIFICANT CRITERIA

Applicable Statutory Privacy Criteria

The Privacy Act of 1974 imposes various requirements for Federal agencies whenever they collect,
create, maintain, and distribute records (as defined in the Act, and regardless of whether they are in
hardcopy or electronic format) that can be retrieved by the name of an individual or other identifier. One
such requirement is to establish appropriate administrative, technical, and physical safeguards to ensure
the security and confidentiality of records and to protect against any anticipated threats or hazards to their
security or integrity, which could result in substantial harm, embarrassment, inconvenience, or unfairness
to any individual about whom information is maintained. Another requirement is that when collecting
information from individuals, the agency is to include on the form a Privacy Act Statement which
indicates the authority for soliciting the information, the intended purpose(s) and routine uses of the
information, whether disclosure is required and the effect of not providing the information. As a Federal
agency, the FDIC is subject to the requirements of the Act. The Act can be located at
http://www.usdoj.gov/oip/privstat.htm.

Consolidated Appropriations Act of 2005, Division H, Section 522 (now 42 U.S.C. § 2000ee-2)
Enacted in December 2004, section 522 directs agencies, including the FDIC, to implement a number of
measures to protect IIF. Such measures include:

        x   Appointing a CPO to assume primary responsibility for agency privacy and data protection
            policy.
        x   Establishing and implementing comprehensive privacy and data protection procedures
            governing the collection, use, sharing, disclosure, transfer, storage, and security of IIF
            relating to agency employees and the public. Such procedures are to be consistent with legal
            and regulatory guidance, including OMB regulations; the Privacy Act of 1974; and section
            208 of the E-Government Act of 2002.
        x   Preparing a written report, signed by the CPO, that provides a benchmark for the agency’s
            privacy program and describes the agency’s use of IIF, along with its privacy and data
            protection policies and procedures. The report is to be recorded with the agency Inspector
            General.
        x   Preparing an annual report to Congress on the activities of the Department that affect privacy,
            including complaints of privacy violations, implementation of the Privacy Act, internal
            controls, and other relevant matters.

Section 522 also requires the Inspector General of each agency to periodically conduct a review of the
agency's implementation of Section 522 requirements and report the results of its review to Congress.
The Inspector General may contract with an independent, third party organization to conduct the review.

E-Government Act of 2002, Section 208. This Act seeks to promote electronic Government services
and to enhance access to Government information consistent with laws regarding personal privacy.
Section 208 is intended to protect personal information by requiring agencies to (1) conduct PIAs of
information systems and collections and, in general, make PIAs publicly available; and (2) report
annually to the OMB on compliance with Section 208. The FDIC has determined that it is subject to the
requirements of this provision. The Act also requires the Director, OMB, to draft guidelines regarding
(1) agency posting of privacy policies on agency Web sites used by the public; and (2) translate privacy
policies into a machine-readable format.


                                                    I-19
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                            Appendix II

Applicable Privacy-Related OMB Guidance

OMB M-03-22, OMB Guidance for Implementing the Privacy Provisions of the E-Government Act
of 2002. The Guidance provides detailed guidance to agencies on how to implement section 208 of the
E-Government Act, see above. This memorandum provides definitions and explains when PIAs are or
are not required, the manner in which PIAs are conducted, and their relationship with the Paperwork
Reduction Act and the Privacy Act. The memorandum contains requirements for the agency Web site,
specifically regarding privacy policies and persistent tracking technologies ("cookies"). Other provisions
address privacy policies in machine-readable formats, responsibilities of agency officials, and reporting
requirements. To the extent that the provisions of this memorandum are legally binding on the FDIC, the
FDIC has taken steps to implement those provisions or has otherwise taken them into account. This
memorandum replaces OMB memoranda 99-18, Privacy Policies on Federal Web Sites, and 00-13,
Privacy Policies and Data Collection on Federal Web Sites. The memorandum can be located at
http://www.whitehouse.gov/omb/memoranda/m03-22.html.

OMB Circular No. A-130, Management of Federal Information Resources . The circular establishes
policy for the management of Federal information technology. The circular contains two relevant
appendixes:

Appendix I, Federal Agency Responsibilities for Maintaining Records about Individuals, describes
agency responsibilities for implementing the reporting and publication requirements of the Privacy Act of
1974. The FDIC has determined that OMB Circular No. A-130, Appendix I, applies to the Corporation.

Subsequent OMB policy provides additional information regarding agency responsibilities for
designating a senior agency official for privacy, conducting PIAs, developing privacy policies for Web
sites, providing privacy education to employees and contractor personnel, and reporting privacy activities.

Appendix III, Security of Federal Automated Information Resources, requires agencies to establish
controls to assure adequate security for all information processed, transmitted, or stored in Federal
automated information systems. OMB A-130 Appendix III defines adequate security as security
commensurate with the risk and magnitude of harm resulting from the loss; misuse; or unauthorized
access to, or modification of, information. Most of the circular’s provisions are legally binding on the
FDIC.

The circular can be located at http://www.whitehouse.gov/omb/circulars/a130/a130trans4.pdf.


Applicable FDIC Policy regarding Privacy

FDIC Rules and Regulations. Parts 309 and 310, Disclosure of Information, sets forth the basic policies
of the FDIC regarding the information it maintains and the procedures for obtaining access to such
information. Part 310, Privacy Act Regulations, establishes regulations implementing the Privacy Act by
delineating the procedures that an individual must follow in exercising his or her access or amendment
rights under the Privacy Act to records maintained by the Corporation in systems of record. FDIC Rules
and Regulations Parts 309 and 310 can be located at:
http://www.fdic.gov/regulations/laws/rules/2000-3800.html.




                                                   I-20
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                          Appendix II

FDIC Circular 1031.1, Administration of the Privacy Act, establishes requirements for the collection,
maintenance, use, and dissemination of records subject to the Privacy Act of 1974.

FDIC Circular 1360.9, Protecting Sensitive Information, implements aspects of the Privacy Act and
requires FDIC employees and contractors to follow the FDIC’s “Procedures for Responding to Breach of
Personally Identifiable Information.”

FDIC Circular 1310.3, Information Technology Security Risk Management Program, establishes
guidance for managing risks to general support systems and sensitive applications and protecting the
confidentiality, integrity, and availability of the sensitive data that the systems process.

FDIC RUP®, establishes standardized procedures covering the development lifecycle of FDIC
application and IT systems. RUP® is a collected body of software engineering practices that are
continually improved on a regular basis to reflect changes in industry practices.

DRR Circular 7100.2, Maintenance and Protection of Bank Employee and Customer Personally
Identifiable Information, establishes DRR policies and guidelines for the protection and safeguarding of
confidential and/or sensitive personally identifiable bank employee and customer information.


Other Relevant Privacy Guidance

The Government Accountability Office’s Standards for Internal Control in the Federal Government,
November 1, 1999. The publication provides an overall framework for establishing and maintaining
internal control and for identifying and addressing major performance management challenges and areas
at great risk of fraud, waste, abuse and mismanagement. This publication builds upon prior internal
control guidance from the Committee of Sponsoring Organizations of the Treadway Commission
(COSO). This publication is relevant as it provides a broad framework to evaluate FDIC’s Privacy
Program. This document maybe found at (http://www.gao.gov/products/AIMD-00-21.3.1).

OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy, requests that
agencies designate a senior official for privacy.     The memorandum can be located at
http://www.whitehouse.gov/omb/memoranda/fy2005/m05-08.pdf.




                                                 I-21
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                       Appendix III

APPENDIX III – LIST OF ACRONYMS
 Acronym   Definition                                         Acronym   Definition
           American Institute of Certified Public             Section   Section 208 of the E-Government Act of
 AICPA
           Accountants                                        208       2002
 CAS       Claims Administration System                       SORN      System of Records Notice

 CIO       Chief Information Officer                          SSN       Social Security Number

 CPO       Chief Privacy Officer                              U.S.C.    United States Code

 DIT       Division of Information Technology

 DOLLARS   DRR Locations and Reporting System

 DRR       Division of Resolutions and Receivership

 FDIC      Federal Deposit Insurance Corporation

 FISMA     Federal Information Security Management Act
           Generally Accepted Government Auditing
 GAGAS
           Standards
 GAPP      Generally Accepted Privacy Principles

 IIF       Information in an Identifiable Form

 ISM       Information Security Manager

 ISPS      Information Security and Privacy Staff

 IT        Information Technology

 KPMG      KPMG LLP

 NIST      National Institute of Standards and Technology

 OIG       Office of Inspector General

 OMB       Office of Management and Budget

 PIA       Privacy Impact Assessment

 PII       Personally Identifiable Information

 POI       Persons of Interest

 PTA       Privacy Threshold Analysis

 RUP®      Rational Unified Process
 Section   Section 522 of Division H of the Consolidation
 522       Appropriations Act of 2005, as amended




                                                       I-22
KPMG’s Audit of the FDIC’s Privacy Program – 2011                                  Appendix IV


APPENDIX IV – GLOSSARY OF TERMS

Term             Definition
Information in   OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy
Identifiable     Provisions of the E-Government Act of 2002, defines IIF as information in an
Form (IIF)       information system or an on-line collection that directly identifies an
                 individual (e.g., name, address, SSN, or other identifying code, telephone
                 number, email address, etc.) or by which an agency intends to identify
                 specific individuals in conjunction with other data elements.

                 OMB Memorandum M-06-19, Reporting Incidents Involving Personally
                 Identifiable Information and Incorporating the Cost for Security in Agency
                 Information Technology Investments, introduced the term PII as a
                 replacement for IIF.
Information      ISMs work together with FDIC security and privacy staff to educate
Security         employees and contractors who have access to corporate systems and data.
Managers         ISMs are responsible for providing guidance to management officials
(ISMs)           regarding the Corporation’s security mission, awareness, priorities and
                 implementation approaches. They ensure the full implementation of the risk
                 management program, including: assessing application security levels,
                 preparing risk assessment reports, planning security requirements in new and
                 enhanced systems, overseeing security plans and related Plans of Action and
                 Milestones, and facilitating the successful completion of the certification and
                 accreditation process. ISMs are also responsible for promoting awareness
                 and compliance with FDIC security policies and procedures, legal mandates,
                 accepted audit recommendations, and annual corporate and application-
                 specific training.
Personally       FDIC Circular 1360.9, Protecting Sensitive Information, which references
Identifiable     OMB Memorandum M-06-19, defines PII as any information about an
Information      individual maintained by the FDIC that can be used to distinguish or trace
(PII)            that individual’s identity, such as their full name, home address, email
                 address (non-work), telephone numbers (non-work), SSN, driver’s
                 license/state identification number, employee identification number, date and
                 place of birth, mother’s maiden name, photograph, biometric records (e.g.,
                 fingerprint, voice print), etc. This also includes, but is not limited to,
                 education, financial information (e.g., account number, access or security
                 code, password, personal identification number); medical information;
                 investigation report or database; criminal or employment history or
                 information; or any other personal information that is linked or linkable to an
                 individual.
Structured       A structured asset sale transaction is the sale of a portfolio of assets owned by
Asset Sale       the FDIC or in its capacity as Receiver (i.e., the Seller). The transaction
Transaction      could involve the sale of any type of asset, but it usually involves owned real
                 estate and/or commercial and multi-family non-performing mortgage loans.
                 (Note, occasionally performing loans are included in the portfolio.) DRR
                 coordinates the transaction from start to finish. DRR may secure a Financial
                 Advisor who develops a plan to market the pool of assets and packages them
                 in the most attractive form for investors.




                                            I-23
                 Part II

Management’s Comments and OIG Evaluation
MANAGEMENT’S COMMENTS AND OIG EVALUATION

On September 12, 2011, the FDIC’s CIO, who also serves as the Director, DIT, and CPO,
provided a written response to a draft of this report. The response is presented in its
entirety beginning on the next page. Management concurred with KPMG’s three
recommendations, and the planned actions are sufficient to resolve all of them.

In response to the recommendations, DIT expects to finalize and issue corporate policy
that includes a requirement for PIAs to be completed and publicly available before
collecting, maintaining, and disseminating PII. DIT also plans to develop strategies for
(1) elevating and reporting instances of non-compliance with privacy-related
requirements to appropriate senior management officials who are in a position to ensure
they are promptly and effectively resolved and (2) identifying and addressing instances of
new PII collections that occur outside of the traditional systems development life cycle
that might require a PIA. DIT expects to complete these actions by December 30, 2011.
A summary of management’s response to the recommendations is on page II-4.




                                           II-1
                          Corporation Comments
        _________________________________________________________




    Federal Deposit Insurance Corporation
    3501 Fairfax Drive, Arlington, VA 22226-3500                                     Division of Information Technology


                                                                                      September 12, 2011

    TO:                 Mark Mulholland
                        Assistant Inspector General for Audits

                       /Signed/
    FROM:              Russell G. Pittman
                       Chief Information Officer,
                       Director, Division of Information Technology, and
                       Chief Privacy Office

    SUBJECT:           Management Response to the Draft KPMG LLP Audit Report Entitled,
                       The FDIC's Privacy Program - 2011 (Assignment No. 2011-011)

    This memorandum is in response to the subject draft Office of Inspector General (OIG) report,
    issued August 12, 2011, and performed by KPMG LLP. We appreciate and agree with the
    OIG/KPMG audit team’s observations that the FDIC had properly:

           Appointed a Chief Privacy Officer (CPO) with overall responsibility for the FDIC’s privacy
            program and submitted annual privacy reports to OMB and Congress as required by Section
            522 in the Consolidated Appropriations Act of 2005;
           Established processes for preparing Privacy Impact Assessments (PIAs) and System of
            Records Notices (SORNs) and making them publicly available
           Posted its privacy policies on the FDIC’s public Web site consistent with Section 208 of the
            E-Government Act of 2002 and Privacy Act of 1974 requirements;
           Approved the two SORNs sampled, published them in the Federal Register, and addressed
            the content requirements of the Privacy Act; and further,
           Included the required legal disclosures, referred to as a Privacy Act Statement, on all sampled
            Division of Resolutions and Receiverships forms that collect Personally Identifiable
            Information (PII) from the public in accordance with the Privacy Act.

    Based on the overall results of the audit, the Division of Information Technology (DIT) agrees
    with all three of the recommended steps to further strengthen FDIC’s privacy program practices.
    This response outlines DIT’s planned corrective actions for each of the recommendations.

.




                                                       II-2
II-3
                 SUMMARY OF MANAGEMENT’S COMMENTS ON THE
                            RECOMMENDATIONS

This table presents management’s response to the recommendations in the report and the
status of the recommendations as of the date of report issuance.

                 Corrective Action: Taken or             Expected        Monetary       Resolved:a       Open
                           Planned                      Completion       Benefits       Yes or No         or
Rec. No.                                                   Date                                         Closedb
   1.          The FDIC will finalize and issue          Dec. 30,           N/A             Yes         Open
               the current draft circular,                 2011
               Implementation of the Privacy
               Provisions of the E-Government
               Act of 2002. The final policy will
               incorporate clarifying language
               that requires PIAs to be
               completed and publicly available
               before collecting, maintaining, or
               disseminating PII.


      2.       Instances of noncompliance with            Dec. 30,          N/A             Yes         Open
               relevant Federal privacy                    2011
               requirements will be escalated to
               the Chief Information Security
               Officer and/or CPO for action
               with the appropriate senior
               management. This strategy will
               be documented in an internal
               privacy program memorandum.


      3.       The FDIC’s current draft circular,         Dec. 30,          N/A             Yes         Open
               Implementation of the Privacy               2011
               Provisions of the E-Government
               Act of 2002, will be updated to
               include a strategy to help identify
               and address instances of new PII
               collections that occur outside of
               the traditional systems develop-
               ment life cycle that might require
               a PIA.



a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount.
                   Monetary benefits are considered resolved as long as management provides an amount.
b
  Recommendations will be closed when (a) the Office of Enterprise Risk Management notifies the OIG that
corrective actions are complete or (b) in the case of recommendations that the OIG determines to be particularly
significant, when the OIG confirms that corrective actions have been completed and are responsive.

                                                     II-4
